                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 1-12100069                                                                      Page 1 of 1



                 We received an allegation from a university system audit Office 1 that a Professor2 from a
         university3 within the system may have violated conflict of interest rules and failed to disclose
         outside income from an NSF grant4 awarded to a non-profit. 5 We agreed to work with the System
         Auditor to resolve this matter.

                After obtaining documents and conducting various interviews, we determined that the
         non-profit was a first time awardee and agreed to work with the university as the sub-awardee on
         the funded project. The PI, who was a Professor with university and also coordinated projects
         with non-profit, was the author of the proposed project. The project had been delayed because the
         non-profit and university had not completed an agreement on how PI would work with the
         university as sub-awardee and the non-profit as the primary awardee. At the time ofthis review,
         no NSF funds have been expended on this project.

                 After our review began, the non-profit worked with the NSF Program Officer, with
         assistance from NSF's Office of Grants and Agreements, the university Office of Sponsor
         Programs to finalize an agreement for the PI and university to work on the project. The revised
         plan for this project included insurances that all possible conflicts would be fully disclosures and
         that the PI is accurately compensated for his time on this project without duplicating his salary
         from the university. The plan was approved by NSF.

                   This case is closed with no further action taken.




         2


         4




NSF OIG Form 2 (11102)
